<html>
<title> - [H.A.S.C. No. 115-34]NATIONAL DEFENSE AUTHORIZATION ACT  FOR FISCAL YEAR 2018</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 115-34]
 ______________________________________________________________                        

                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2018

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                   SUBCOMMITTEE ON READINESS HEARING

                                   ON

               THE CURRENT STATE OF THE U.S. MARINE CORPS

                               __________

                              HEARING HELD
                             APRIL 5, 2017


                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-150                 WASHINGTON : 2018      
                                     
  


                       SUBCOMMITTEE ON READINESS

                  JOE WILSON, South Carolina, Chairman

ROB BISHOP, Utah                     MADELEINE Z. BORDALLO, Guam
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
STEVE RUSSELL, Oklahoma              TULSI GABBARD, Hawaii
MIKE ROGERS, Alabama                 CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             A. DONALD McEACHIN, Virginia
ELISE M. STEFANIK, New York          SALUD O. CARBAJAL, California
MARTHA McSALLY, Arizona, Vice Chair  ANTHONY G. BROWN, Maryland
SCOTT DesJARLAIS, Tennessee          STEPHANIE N. MURPHY, Florida
TRENT KELLY, Mississippi             RO KHANNA, California
MIKE GALLAGHER, Wisconsin
                Andrew Warren, Professional Staff Member
                Brian Garrett, Professional Staff Member
                          Jodi Brignola, Clerk
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Courtney, Hon. Joe, a Representative from Connecticut, 
  Subcommittee on Readiness......................................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Readiness......................................     1

                               WITNESSES

Bailey, LtGen Ronald L., USMC, Deputy Commandant for Plans, 
  Policies, and Operations, Headquarters U.S. Marine Corps; LtGen 
  Michael G. Dana, USMC, Deputy Commandant for Installations and 
  Logistics, Headquarters U.S. Marine Corps; and William E. 
  Taylor, Assistant Deputy Commandant for Aviation, Headquarters 
  U.S. Marine Corps..............................................     3

                                APPENDIX

Prepared Statements:

    Bailey, LtGen Ronald L., joint with LtGen Jon M. Davis and 
      LtGen Michael G. Dana......................................    27
    Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
      Member, Subcommittee on Readiness..........................    25
    Wilson, Hon. Joe.............................................    23
Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Ms. McSally..................................................    45

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
               THE CURRENT STATE OF THE U.S. MARINE CORPS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                          Washington, DC, Wednesday, April 5, 2017.
    The subcommittee met, pursuant to call, at 2:16 p.m., in 
room 2212, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
      SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Wilson. Ladies and gentlemen, I want to welcome you all 
here today and call this unclassified hearing of the House 
Armed Services Committee, Readiness Subcommittee, on ``The 
Current State of the United States Marine Corps'' to order.
    The consistent theme of the 115th congressional session of 
the House Armed Services Committee is to continue the drumbeat 
of our current state of overall military readiness, and in many 
cases, where we are not providing necessary resources to enable 
power projection and exercise the principle I strongly believe, 
and that is peace through strength.
    The Marine Corps currently has over 20 percent of its 
Active Duty force deployed in 37 countries, so you clearly play 
an integral part in deterring adversaries and reassuring our 
allies. And even today, with the chemical attack in Syria, it 
is actually reassuring to me to know that there is a presence 
that can help the people of that war-torn tragic country.
    Over the past several weeks, both of our full committee and 
this subcommittee have listened keenly to briefings and 
hearings from leading national security experts and senior 
military leaders describing the current threats we face and the 
current state of the military. After listening to these 
sobering assessments, there is no question in my mind we are 
sadly, indeed, in a readiness crisis.
    In addition, earlier this morning, we received testimony 
from each of the service chiefs on the consequences of another 
continuing resolution. This continuing resolution would only 
worsen the damage to our military and its readiness.
    The Marine Corps provides our Nation with a versatile set 
of capabilities, ranging from crisis response, amphibious 
operations, and theater security cooperation. We must assist 
your efforts to restore readiness where it is lacking for 
today's threats and integrate necessary skills to address 
tomorrow's challenges.
    I am personally concerned about the lasting impacts 
incurred as a result of the Marine Corps prioritization, quote, 
``near-term readiness,'' end of quote, at the expense of other 
areas, such as capacity, capability, modernization, and 
facility sustainment.
    I believe the first responsibility of the Federal 
Government is to secure its citizens, and therefore, it is our 
duty to better understand the readiness situation the Marine 
Corps finds itself in and then aid in that recovery.
    This is especially appropriate since the originally 
required by the 82nd Congress and subsequently referred by the 
114th Congress, the Marine Corps is the, quote, ``Nation's 
expeditionary force of readiness,'' end of quote.
    This afternoon, we are honored and grateful to have 
Lieutenant General Ron Bailey, United States Marine Deputy 
Commandant, Plans, Policies, and Operations.
    We have Lieutenant General Mike Dana, the U.S. Marine Corps 
Deputy Commandant of Installations and Logistics; and senior 
executive servant, William E. Taylor, the Assistant Deputy 
Commandant for Aviation.
    I want to thank each of you for your admirable and 
extraordinary service to the Corps and this Nation. I believe 
it is worth noting that our panel--this is amazing--has 110 
years of combined experience, and this will be extremely 
helpful as this subcommittee seeks to address readiness 
challenges moving forward.
    We now ask the senior leaders of the Marine Corps here 
today to offer us their candid and best military advice related 
to the current state of readiness, which includes home 
facility--home station facilities, deployed force capabilities, 
and those units training to be the next to go forward in harm's 
way.
    We look forward to hearing from our witnesses, and thank 
you for testifying today as you highlight the current state of 
the Marine Corps readiness.
    I now would like to turn to the ranking member, 
Representative Joe Courtney, from Connecticut, for any opening 
remarks he would like to make.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 23.]

     STATEMENT OF HON. JOE COURTNEY, A REPRESENTATIVE FROM 
             CONNECTICUT, SUBCOMMITTEE ON READINESS

    Mr. Courtney. Thank you, Mr. Chairman. I would only edit 
your comment by saying I am the temporary ranking member of the 
subcommittee, because Ms. Bordallo, again, is back home in Guam 
taking care of some family affairs, and obviously other work in 
her home district.
    She has a written statement, which, again, I would just, 
again, ask to be entered for the record.
    [The prepared statement of Ms. Bordallo can be found in the 
Appendix on page 25.]
    Mr. Courtney. And she did ask me just to read a very brief 
comment as well, which is that she, again, is unable to be here 
today, but she communicated that she is looking forward to 
seeing the Marine realignment to Guam continue forward without 
delay. The Marine Corps and the Department of Defense should 
take necessary steps to ensure that the challenges are being 
promptly and adequately addressed.
    So I am sure it is going to come as a great shock to all of 
us that she did want to talk about Guam a little bit in her 
comments here. And, again, I had a chance to meet with these 
gentlemen in the office and want to, again, thank them for the 
great testimony you are about to prepare here today.
    General Neller, again, did an excellent job this morning. 
It is my understanding he flew in at 5:00 this morning from 
overseas and got to the committee. So he deserves bonus points 
for, again, his efforts this morning and his concise comments, 
which was also really, I think, very effective in terms of his 
presentation here.
    So, again, thank you, again, to the witnesses. And with 
that, I would yield back.
    Mr. Wilson. Thank you, Congressman Courtney.
    And indeed, we are really grateful for the service of 
Delegate Madeleine Bordallo. At this time of the year, she 
provides a report to the people of Guam, and so it is a 
tradition that she so effectively represents the very patriotic 
people of the territory of Guam.
    Now, we will be proceeding with the combined opening 
statement from the panel being delivered by Lieutenant General 
Bailey.

 STATEMENT OF LTGEN RONALD L. BAILEY, USMC, DEPUTY COMMANDANT 
 FOR PLANS, POLICIES, AND OPERATIONS, HEADQUARTERS U.S. MARINE 
   CORPS; LTGEN MICHAEL G. DANA, USMC, DEPUTY COMMANDANT FOR 
 INSTALLATIONS AND LOGISTICS, HEADQUARTERS U.S. MARINE CORPS; 
    AND WILLIAM E. TAYLOR, ASSISTANT DEPUTY COMMANDANT FOR 
            AVIATION, HEADQUARTERS U.S. MARINE CORPS

    General Bailey. Mr. Chairman, thank you very much.
    Good afternoon, Chairman Wilson, Ranking Member Courtney, 
and distinguished members of the House Armed Services 
Subcommittee on Readiness.
    On behalf of Lieutenant General Dana, Mr. Taylor, and I, we 
thank you for the opportunity to appear here today and report 
on the readiness of your United States Marine Corps.
    Congress and the American people have high expectations for 
the Marine Corps as our Nation's naval expeditionary force in 
readiness. As we sit here today, there are over 34,000 Marines 
deployed in 37 countries around the globe to assure our allies 
and partners, to deter our adversaries, and to respond when our 
Nation's citizens and interests are threatened.
    While today's force is capable and our forward-deployed 
forces are ready to fight, we are physically stretched to 
maintain readiness across the breadth of the force in near 
term, and to modernize for future readiness against the threats 
we will face.
    Rebuilding a balanced Marine Corps will require both near-
term actions and also longer-term efforts. To rebalance our 
readiness for current operations and future contingencies, it 
will require both time and sufficient, consistent, and 
predictable funding.
    On behalf of all of our Marines, sailors, civilians, and 
their families, we thank the Congress and this committee for 
the support that you have provided and for this opportunity to 
discuss the key challenges your Marine Corps faces. We look 
forward to your questions.
    [The joint prepared statement of General Bailey, General 
Jon M. Davis, and General Dana can be found in the Appendix on 
page 27.]
    Mr. Wilson. General, thank you very much. And Mr. Warren is 
going to keep us strictly on a 5-minute rule, and so we will 
begin with me at 5 minutes.
    And indeed, today, General, it is such a chilling reminder 
of what we face. The chemical weapons used in Syria by the 
Assad regime, which has been propped up by the Russian 
Federation and the regime in Tehran, the Iranian regime.
    And then virtually simultaneously, as the President of 
China is here to visit with President Trump, it is no surprise 
that North Korea has another missile launch. And somehow, you 
would hope that the People's Republic would understand that the 
instability in North Korea and Pyongyang is really a threat to 
them too. But, again, the Marine Corps has never been more 
important as we face challenges around the world.
    And this is the same time there was a terrorist attack with 
mass killings by Islamic terrorists, extremists in Pakistan. 
And this is after, of course, the attack on the subway system 
in Saint Petersburg, Russia, and again, a chilling reminder 
this week of what you face and the courage and bravery of our 
U.S. Marine Corps.
    Under the Bipartisan Budget Act and the Budget Control Act 
funding levels, what are the hardest readiness choices that you 
continue to have to make, and what impact do these have on your 
ability to meet mission requirements in the National Defense 
Strategy? And please provide specific examples. And General 
Bailey, you first and then your colleagues.
    General Bailey. Sir, the most difficult readiness challenge 
is that we have centers around the framework that we have 
established when we look at readiness, that is high-quality 
people. And when you think about the challenge that we have, it 
is very, very important that we have the opportunity to recruit 
high-quality people.
    When we are operating off of a budget that is in CR 
[continuing resolution], then we can't dedicate the money that 
we need towards that. In addition to that, we look at 
capability and capacity. And so just as you described, all of 
those challenges that are out there, those threats that are out 
there, when you start talking capability and capacity, when you 
do not have the funds to, one, develop a force to be able to 
counteract that, that creates a tremendous challenge for our 
forces.
    We have clearly recognized that we are devoting money and 
time towards those forces that are deployed and preparing to 
deploy. But in order for us to continue, we need to have a 
budget, a budget that is predictable, reliable.
    And one other thing that I would like to add to that before 
I turn to my colleagues is that when we start talking 
modernization of our equipment, that is a big challenge for us. 
You have got to have modernized equipment. The enemy that we 
face, as you describe, is an enemy that is in complex terrain. 
That enemy can also cut us off when we start talking 
electromagnetic spectrum.
    They have capabilities now to detect signatures. That enemy 
can also fire long-range precision fires. And so we need 
modernized equipment to be able to compete on a battlefield so 
that we can stay at the top and stay at the top of our game.
    Mr. Wilson. General Dana.
    General Dana. Chairman, if I could add to that. As you look 
at World War II--and General Milley talked about that today--
that is a three-dimension fight, sea, air, and land, and now we 
have space and cyber. And as we look at our near-peer 
competitors and the weapons that they can bring to bear, we 
require more standoff distance and we need to be more 
distributed.
    So as we look at that modernization effort and we look at 
all our shoot, move, and communicate platforms, the only things 
that are getting refreshed or that we are actually getting new 
platforms for are the ACV [Amphibious Combat Vehicle], JLTV 
[Joint Light Tactical Vehicle], and G/ATOR [Ground/Air Task 
Oriented Radar] radar.
    And I forgot to mention upfront, we appreciate every penny 
you give us, because we are good stewards of the taxpayer 
dollars. So I am bringing these requirements up. We appreciate 
whatever you can provide us.
    So in that new what I call extended battlespace, we need 
these new capabilities like the 53K [CH-53K], the MV-22, the 
ACV to ensure that we can have the standoff distance and then 
be able to go ashore, and then have the capability to move 
logistics ashore, again, with platforms like the 53K. And we 
are looking at unmanned platforms also.
    The other thing I would bring up is we plan on a 5-year 
window with our equipment and with our facilities, and we have 
a very rigorous process. The Commandant holds my feet to the 
fire. We can't waste any money. And when we develop that plan 
and you have either sequestration, a CR, or reduction in 
funding, it throws the plan off track.
    So thank you for listening.
    Mr. Wilson. Thank you.
    Mr. Taylor. And on the aviation side, our biggest risk is 
our ability to balance future readiness versus current 
readiness. Future readiness is derived through sustainable 
readiness as a function of recapitalization. Not too many 
people think of it in that terms, but recapitalization isn't 
just for the purpose of fielding capability. It is also for the 
purpose of fielding sustainable readiness as compared to what 
we call ``tired iron.''
    The legacy aircraft, for instance, the 53 Echo [CH-53E], on 
average the 53E was 28 years old. I was a member of the unit 
that first sent the 53E on its first operational deployment and 
that was 34 years ago. And then there is the F-18. The F-18 we 
are struggling to maintain. Again, several variants of the F-18 
are 28 years old, and just the fundamental material condition 
of the aircraft is almost unmanageable at this point.
    We send it to the depot, they peel back a panel, they find 
corrosion, they peel back another panel. There has been, to my 
knowledge, at least half a dozen F-18s recently that were 
inducted into the depot only to be stricken halfway through and 
they realized it is not even salvageable.
    So we are bouncing the criticality of getting out of 
``tired iron'' and fielding our new aircraft as soon as 
possible versus current readiness, current readiness being our 
readiness accounts. They have been underresourced consistently 
over a period of about 12 years now, whereas a sustainable 
level of readiness in terms of those readiness accounts is 
around 85 percent.
    Over those 12 years, the readiness levels have deteriorated 
in those accounts to an aggregate level of about 67 percent. So 
that equates to our inability to support the legacy aircraft we 
have on the flight line. And that has manifested itself in 
deteriorating non-mission-capable supply rates; so, in other 
words, of the aircraft that are available on the flight line 
today, in the aggregate, 23 percent of our inventory on the 
flight line is not available due to parts.
    And that percentage actually masks the fact that that 
metric is agnostic to how many parts that aircraft is down for. 
So it assumes it is one part when, in fact, it can be multiple 
parts after constant cannibalization by the maintainers to try 
and keep a certain percentage of aircraft up.
    So our biggest risk is balancing future readiness through 
procurement of new aircraft so that we can have sustainable 
readiness versus current readiness in robustly funding those 
readiness accounts.
    Mr. Wilson. And thank each of you for your clarity.
    We now proceed to Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    As I said earlier, I had a chance to meet with the panel 
earlier, so I am going to defer my questions for now to 
Congresswoman Gabbard, who is next in line.
    Mr. Wilson. And Congresswoman Tulsi Gabbard from Hawaii.
    Ms. Gabbard. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here and for your service.
    I want to bounce a little bit off of Mr. Taylor's comments 
mentioning aviation readiness. This is something that has been 
identified as an area of acute need, both with the aircraft and 
the maintenance but as well as the ability for our pilots to 
have enough training hours to have the experience they need to 
complete their missions.
    Can you talk a little bit about the plan to get to where we 
need to be in both of those respects with regard to aviation, 
and how either a CR or a supplemental will impact the execution 
of that plan?
    Mr. Taylor. Okay. I will take that first one. So Marine 
aviation is about 2\1/2\ years into a readiness recovery plan. 
Our ultimate objective is to have 1,065 aircraft available on 
the flight line, not necessarily up, but available for 
maintenance, available for training, available to support 
operational plans.
    Where we are right now is we have about 983, so we are 
about 82 short of that goal. The intent is to achieve that 
1,065 and have what they call a ready bench around the 2022 
timeframe. So we have an interim goal, an interim goal of what 
they call Ready Basic Aircraft, and that essentially means the 
aircraft is up and available for training or tasking.
    And our goal is an interim goal of fiscal year 2020 to have 
about 589 of those aircraft available for tasking. We are 
currently sitting at about 433 or 156 short. So that is really 
talking about current readiness, so that is really talking 
about our readiness accounts.
    And I could just refer you to, if we go long term, what 
this means in terms of specific accounts. I will just pick out 
a couple to give you an idea if we continue down this path of a 
full year CR or we don't get the supplemental, here is just a 
comparison.
    For the aircraft depot maintenance account, we are talking 
84 percent versus 88 percent funding levels. The air systems 
support, air systems support is essentially what Naval Air 
Systems Command uses to pay their engineers, to take care of 
engineering issues, logistics issues, to monitor the air 
worthiness of an aircraft. We are talking about 58 percent 
versus 93 percent, so a big dip there.
    And then aviation logistics, that is our 1A, 9A account as 
we call it, that is essentially what we pay for like PBL 
[Performance Based Logistics] services and such. And on that 
one, we are talking about 80 percent versus 94 percent.
    And the biggest one, I earlier referred to our biggest risk 
on the current readiness being spares, the difference would be 
83 percent--I am sorry--73 percent versus 88 percent. So that 
is probably the most significant one aside from the air systems 
support, spares at 73 percent versus 88 percent.
    Ms. Gabbard. Thank you.
    General Dana.
    General Dana. I am from New York so I am going to talk fast 
because I have got a minute, 30. But there is three quick 
points I would like to bring up. If you look at our depot 
funding over the past 10 years, we have been funding to 80 
percent of the requirement. So that means 20 percent of that 
work is being deferred and pushed to the right. And anytime we 
have interruption in funding, it really impacts the schedule in 
a negative way.
    The other thing is, in 2013, when we had the furlough, it 
did two things: 888 pieces of gear were not inducted for 
maintenance that were critical to the shoot, move, and 
communicate portfolio that I talked to previously; plus, we 
broke faith with the workers. Because just to retain, you know, 
our artisans, our skilled workers, I mean, it is a very close 
relationship that we have. We have education programs for them. 
We do a lot to mature them and grow them. And then when you 
furlough them, they look at you and go, what are you doing? You 
are breaking faith.
    General Bailey. I would like to add that in all of that, it 
comes home to me because I need those aircraft to train. And so 
when those aircraft are not available for us to train with, 
that creates a tremendous amount of challenges for a portion of 
the Marine air-ground task force, and that task force cannot 
conduct all this training to be ready for the missions to 
support requirements that may be deemed by the national command 
authority or combatant commander.
    Ms. Gabbard. Thank you.
    Thank you, Mr. Chairman.
    Mr. Wilson. Thank you, Congresswoman Gabbard.
    We now proceed to Congressman Austin Scott of Georgia.
    Mr. Scott. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service; 110 years, that is a 
long time in anybody's book, so we have been honored to have 
you.
    General Bailey, many of my constituents work at the Marine 
Corps Logistics Base in Albany. Some are even family over 
there, although I don't tell them. Don't tell the command over 
there when I am visiting. The work that is performed at those 
depots is key to the fight and enabling the warfighter and our 
readiness.
    The impact in the current budget environment on readiness 
that we keep talking about, what specific challenges do you 
face with the Marine depots operating at current capacities and 
being able to successfully execute the maintenance missions?
    General Bailey. Congressman, we have an expert here who 
works in that field, so I am going to pass that question off on 
him because he has spent the bulk of his career working in that 
area.
    Mr. Scott. General Dana.
    General Dana. Sir the biggest challenge--and we are going 
to foot stomp this all day today, and we really appreciate you 
listening--is stable, uninterrupted, consistent funding so we 
can do our 5-year planning window. The Commandant has told us, 
he has given direction that we will know what equipment we 
have, what condition it is in, and what we need to do to 
sustain it.
    And I have to provide him a brief and walk through all our 
depot requirements for all of our equipment. And when I lay out 
that 5-year plan, sir, and then we don't get the funding or we 
are funded to 80 percent or the funding is interrupted, the 
schedule blows apart.
    Now, where I am seeing that is in our top 25 items that I 
mentioned earlier, our shoot, move, and communicate; that, for 
instance, AAVs [Assault Amphibious Vehicles] are at 65 percent 
readiness across the Marine Corps. I mean, that is our main 
connector to get to the beach in an amphibious operation or an 
expeditionary operation.
    We are looking at LAV [Light Armored Vehicle] readiness 
around 70 percent, tanks around high 70s. So all these critical 
warfighting assets just keep--it is slow, but it is gradual, it 
is discernible, and it is measurable, and we are seeing the 
impact to readiness. So what we are asking for, whatever money 
we get, we will use it wisely, we will plan accordingly, but we 
just need consistent funding.
    Mr. Scott. General Dana, I am going to hang with you for a 
second. As you know, there was recently significant storm 
damage to the infrastructure at the Marine Corps logistics base 
in Albany. We have got big storms on the ground right now in 
that area.
    As you know, there are only two depot sites, a lot of talk 
about BRAC [base realignment and closure] concerns, people in 
the area. We obviously have one on the east coast, one on the 
west. One, would you talk about where we are specifically with 
the cleanup in Albany; what do you need from us to get back to 
full capacity; and then, why is it so crucial to have two 
depots in the Marine Corps?
    General Dana. Yes, sir. Great question. Thank you.
    Having the two depots--I mean, it has been proven by this 
unfortunate tornado, which inflicted $100 million worth of 
facilities damage on the Albany depot. Thank God, no one was 
hurt. It was on a Sunday. We didn't have any workers. Today we 
sent the workers home because we are in a high state of storm 
alert down in Albany, so we are making sure we are taking care 
of the workforce.
    So as we look at the depots, we are working very hard to 
get after this issue. We moved $45 million in facilities 
sustainment, readiness, modernization money to work on the 
current damage to Albany, but that takes away from another 
account for other bases.
    So we also, sir, have the $233 million in equipment damage 
at Albany, which will be another bill, but we are looking at 
that very closely to make sure that that is an accurate number 
before we come to Congress. So in review, $100 million on the 
facilities side, $233 [million] on the equipment side, and we 
are taking care of the workforce.
    Mr. Scott. Thank you for your service, and thank you for 
the time to discuss these issues in our office and how we can 
be more efficient with the taxpayer dollars.
    Gentlemen, I appreciate all of your service. And I don't 
know how much time I have left, but I am pretty sure it is not 
5 minutes.
    Mr. Wilson. You have a perpetual 5 minutes.
    Mr. Scott. I will yield whatever time.
    Mr. Wilson. And thank you very much, Congressman Scott.
    And indeed, our thoughts and prayers are with the people of 
Georgia and South Carolina today as they are under a tornado 
and storm alert and watch.
    Mr. Scott. Chairman, there are four tornados on the ground 
in my district right now.
    Mr. Wilson. An extraordinary storm coming through toward 
capital city of Columbia and Lexington and Aiken.
    We now proceed to Congressman Salud Carbajal of California.
    Mr. Carbajal. Thank you, Chairman Wilson and Ranking Member 
Courtney.
    And thank you to all of you for addressing us today. And 
thank you for your service, most of all.
    I believe we are all in agreement in terms of the negative 
impacts of sequestration and how Congress' inability to pass an 
actual budget is making it difficult for the Marines, along 
with all other services, to execute any type of good planning.
    Last month, the full committee held a hearing on the state 
of the military, where I expressed my concerns not only in 
regards to sequestration but also how we are going to balance 
the growing defense budget versus a shrinking domestic agenda.
    The Marine Corps conducted a bottom-up review of the force 
entitled ``Marine Corps Force 2025.'' During this review, did 
the Corps take any steps to identify wasteful spending and 
possible efficiencies? And if it did, can you provide us with 
some examples.
    Additionally, a part of readiness is investing in our 
infrastructure, as was touched on earlier. What are some 
immediate infrastructure needs the Marine Corps has identified?
    General Bailey. Sir, let me start with ``Marine Corps Force 
2025''. The Commandant had taken the time to kind of look at 
the threat. Some Marine Corps intelligence activity put 
together an assessment that stated that in 2025, these are the 
capabilities that we are going to need in order to be 
competitive to be able to compete with our adversaries.
    So in this review--and it is still going on--he is looking 
at all aspects of our Corps in terms of the organization of our 
Corps, the number of our different squad sizes, the logistics, 
the aviation. So he is looking completely across the Corps.
    In his look, it is looking to see where we can gain 
efficiencies. And the reason we need to gain efficiencies is 
because we have got to develop a skill set. And a skill set 
that we need, we have determined that we need about 3,000 
Marines to fulfill that skill set, that skill set in cyber, 
that skill set in information operations, that skill set to 
have someone maintain the ability to identify electromagnetic 
signature release, and on and on and on.
    So in that process, we have all looked across at the Marine 
air-ground task force from a ground combat element side, from a 
logistics side, from an aviation side, and from the command 
element side. And I can assure you we will gain some 
efficiencies, and that in itself will cut back on the wasteful 
activity.
    From the infrastructure side, I am going to turn to my 
counterpart here and let him talk about infrastructure.
    General Dana. Sir, great question.
    On the efficiency side, we are making sure we know what we 
have and we are spending it wisely. The Commandant has directed 
we conduct 149 what we call FSMAOs [Field Supply and 
Maintenance Analysis Office]. I know you remember what one of 
those are, but it is a supply and maintenance inspection, to 
make sure that we know everything that we have and that if 
people are using the proper procedures to, you know, have 
accountability for equipment, how they are spending money. And 
those reports are briefed out to him personally by me. If you 
get a good grade, it is good for that commander; if you don't, 
it is bad day for that commander.
    Next, on the infrastructure, we have an infrastructure 
installation reset strategy where we are looking at our entire 
portfolio, the 24 bases and stations. And what we do is we look 
at consolidation, demolition, refurbishment, and new build. 
That plan is briefed to the Commandant. So every penny that we 
are spending, he is vetting the entire plan on what we are 
doing with our facilities.
    Mr. Carbajal. Thank you very much. I thought you were going 
to tell me you got rid of ``hurry up and wait'' in the Marine 
Corps.
    Mr. Chair, I yield back. Thank you very much.
    Mr. Wilson. And Congressman Carbajal, thank you very much 
for your insight.
    And we now proceed to Congresswoman Vicky Hartzler of 
Missouri.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    And thank you all for your service in difficult times.
    I wanted to follow up on some of the earlier discussion 
about the aviation shortfalls and ask you to just start off and 
review--maybe Mr. Taylor--where we are at in the process of 
transitioning to the F-35s, and how many are coming online, how 
many F-18s are you still operating with, how many are able to 
fly at any given day, and come and give the transition plan 
there again.
    Mr. Taylor. Okay. As far as the transition, I believe we 
currently have inventory of 45. We have three operational 
squadrons at this point. The transition goes through--the 
transition end date, or FOC [full operational capability], goes 
through 2031 based on assumptions with respect to the 
procurement profile and rate. The biggest struggle is whether 
or not our F-18 fleet can be maintained that long.
    General Davis has recently made a decision to revise the 
transition plan, whereas it was previously a mix of 
transitioning Harrier squadrons and Hornet squadrons. He has 
reprioritized based on the material condition of the Hornet, 
and he has made a definite decision that the next three 
transition squadrons will be F-18s, and potentially the next 
five.
    Because of some of the things we have done to invigorate 
the health of the Harrier, that is one of the least of our 
problems right now. So we believe we can get the Harrier to the 
finish line in its current state by monitoring it. It was, in 
fact, our first type model series that we put through an 
independent readiness review to make recommendations as to how 
to sustain it long term. So at this point, it is whether or not 
the F-18s can last that long.
    Mrs. Hartzler. So are you asking for some new F-18s to fill 
in in the meanwhile?
    Mr. Taylor. We are not asking for new F-18s. We don't have 
a requirement for that. In fact----
    Mrs. Hartzler. Well, the Navy asked for unfunded 
requirement, so----
    Mr. Taylor. Yes, they did. General Davis' view of this is, 
why would we want a fourth-generation fighter, another one. The 
F-35 is a fifth-generation fighter. We have already 
accommodated fourth-generation requirements by procuring over 
380 H-1 aircraft, that also include the AH-1 attack aircraft. 
So we have fourth-generation capability level of effort. So we 
are----
    Mrs. Hartzler. Gotcha. I am sorry to cut you off. We have 
limited time.
    So let's talk about the parts issue though because this is 
really serious what you were sharing, you know, that they open 
them up and, you know, it is not even worth fixing. We have had 
issues--I have Whiteman Air Force Base, the B-2s having the 
parts.
    Mr. Taylor. Right.
    Mrs. Hartzler. We have been working on the parts 
sustainability. So what are you--are you taking any efforts to 
try to get the parts that you need for these F-18s to help 
carry over----
    Mr. Taylor. So I mentioned the independent readiness review 
for the Harrier. That was the first of five that have now been 
executed. After completing an independent readiness review for 
the 53, after Harrier, we did the 53, we did the V-22, we did 
the H-1, we did a ground safety mishap review, and now we are 
about T-minus a month away from launching an independent 
readiness review of the legacy Hornet.
    Mrs. Hartzler. Okay. That is great.
    I want to switch real fast in my last minute to talk 
about----
    Mr. Taylor. The real answer is to get out of the legacy 
Hornet business as fast as possible and transition to the F-35.
    Mrs. Hartzler. Okay. End strength. So Congress has 
authorized the Marine Corps to halt its end-strength drawdown 
during fiscal year 2017, but the current continuing resolution 
does not fund the Marine Corps at this level. And Secretary 
Mattis wrote in January of this year a guidance that the 
President's budget request for fiscal year 2018 will, quote, 
``grow force structure at the maximum responsible rate.''
    So what is the maximum responsible rate the Marine Corps 
can grow by, and how big does the Marine Corps need to be to 
carry out its current missions and potential contingencies?
    General Bailey. Ma'am, thank you very much for that 
question.
    As I had mentioned earlier, we looked at the 3,000 as the 
Marines that we needed to give us the capability for a 2025 
fight. The Commandant has stated that 3,000 Marines per year is 
the way we plan on bringing in new recruits and Marines to 
build up the capability that we need.
    And so that is the responsible way to do that, when you 
start talking about keeping high-quality Marines in our Corps, 
and so that we can provide the Nation the crisis reaction force 
that you expect us to have. So that is the direction that we 
are going at this point.
    Mrs. Hartzler. My time has expired. Thank you very much. I 
yield back.
    Mr. Wilson. Thank you, Congresswoman Hartzler.
    We now proceed to Congressman Trent Kelly of Mississippi.
    Mr. Kelly. Thank you, Mr. Chairman and Ranking Member.
    Thank you, gentlemen, for being here today and answering 
these questions.
    I want to start with, I heard--Task Force Smith in Korea 
was what happens when we are not ready to meet the challenges 
of today. I brought this up in a full committee hearing, but I 
think so many of the American people don't understand that 
regardless of how well trained and how much heart you guys as 
Marines have, if we don't have the right equipment, the right 
munitions, the right amount of equipment that works or right 
repair parts, it doesn't matter if we have a next generation, 
an F-35 in waiting, the enemy will not wait until we are ready 
to attack. And if they are smart, they will attack while we are 
not ready, which is what we would do.
    And so I am so scared with all this BCA [Budget Control 
Act] and sequestration and all these things that people are 
failing to understand that we are at critical risk in this 
Nation of asking our armed services to take massive casualties 
because we are not giving them the right amount of dollars to 
have the right munitions, the right equipment, the right parts, 
and the right training to meet those objectives on the day.
    I think, Mr. Taylor, you said, or it may have been you, 
Lieutenant General Bailey, about 65 to 70 percent OR 
[operational readiness] rate among many of our--to get our 
Marines the equipment they used to get from the ships to the 
beach. Is that correct?
    General Dana. Yes, sir, that is correct, 65 percent.
    Mr. Kelly. Okay. Now, going back to the time when I was a 
lieutenant and a company commander and a battalion commander 
and all those things, pre-9/11, battalion commanders and 
brigade commanders and division commanders got fired if they 
had an operational readiness rate, an OR rate of less than 90 
percent, in many cases. But now it is acceptable to have 
equipment at 65 to 70 percent because that is the best we could 
do. Is that correct?
    General Dana. Sir, how I would like to address that is, 
that is a great question. As we look at the war plans and you 
look at the Korea set, and I won't get into a lot of detail, 
but that is a very demanding logistics and equipment plan, 
that--you know, based on our Korean war experience.
    Just to give you an order of magnitude, as you look at 
General MacArthur in the Pacific, the logistics that he needed 
for that fight was 83 percent less than was used in Korea. And 
that fight generated a cost of $157 billion.
    So as we look at across our portfolio, we need $11.2 
billion for modernization of our equipment to get us where we 
need to be. That is the new field I talked about, in refreshing 
our other equipment. We need $9 billion in facilities 
sustainment, readiness, modernization because the bases and 
stations are platforms to deploy from and get people out.
    So if we get that funding, we will be on a higher step. But 
what I will say, and I think the Commandant who was sitting 
here and General Bailey would say is, we are the ``fight 
tonight'' force. We have got what we have got. We will do the 
best we can with it. But if you give us this funding, we will 
be more expeditionary, more capable, more punch on the other 
end.
    Mr. Kelly. And a CR, without the supplemental and even just 
not doing the appropriations process like it is, that does not 
get you any closer to being able to modernize and equip our 
Marines that go into the fight at the level that they deserve 
to be. Is that correct?
    General Bailey. Sir, that is correct. And let me just kind 
of go down. We are talking about the CR and the supplemental. 
And so here is what we are talking: Loss of Active Duty 
Marines; we are going to have to cancel Reserve Force drills; 
we have to stop our CONUS [contiguous United States] flights; 
cease the recovery from the tornado down in Albany; we will 
lose one amphibious ship; it will reverse modernization. It 
will push us back.
    And then Mike just talked about the facilities aspect of 
it, but those are the things that if we don't get the 
supplemental, that we will be impeded and create challenges for 
us there.
    Mr. Kelly. And I think this is you, Lieutenant General 
Dana, but one thing, we talk about standoff a lot. And I 
understand what standoff is because I am an engineer and I am a 
military guy and spent some time. I don't think most civilians 
though or most people understand what standoff really is.
    And so I am going to try to explain it, and you tell me if 
I am right. It is the whatever weapon system we are talking 
about, the range, like 2,500 meters for a tank if we want to 
use that, at which it has a 50/50 chance of hitting an enemy 
target. And if the enemy has 3,000 meters and we have 2,500, 
that 500 meters difference is a standoff, the distance where he 
can kill us but we can't kill him back. Is that true?
    General Dana. Sir, you nailed it.
    General Bailey. Yep.
    Mr. Kelly. And right now, because of munitions and lack of 
fifth-generation fighters, those kinds of things create more 
standoff for the enemy, especially in some areas like 
artillery, that we have the capabilities but we right now don't 
have the equipment to take care of that standoff. Is that 
correct?
    General Dana. Yes, sir, on target.
    Mr. Kelly. Mr. Chairman, thank you so much, and I yield 
back. And thank you, gentlemen.
    General Bailey. Sir, let me add something to that also, 
because in addition to that standoff, and we have said this 
over the years, that the--our adversaries have not sat idle. 
And while we were engaged in combat for the past 15 years, they 
have been developing their capability and developing their 
capability to allow them to be able to work in the cyber world, 
have standoff, have precision weapons. And so that is what we 
are pushing towards when we start saying we need the money for 
modernization to be competitive against our adversaries.
    Mr. Wilson. Thank you, Congressman Kelly, and thank you for 
your military engineering insight.
    And now we proceed to someone with a military aviation 
insight, Congresswoman Martha McSally of Arizona.
    Ms. McSally. Thank you, Mr. Chair.
    Thank you, gentlemen, for your testimony.
    We talked this morning, the full committee, about the 
impact of a CR. Those of us who are here, obviously--I don't 
want to speak for everybody else, but we are very committed and 
understand the impacts of the military.
    As we look at the timing, obviously we need to fund the 
government and the DOD [Department of Defense] by the end of 
April to get off the CR, but then there is a supplemental 
issue, the supplemental request. Can you give a sense of--I 
know immediately is probably the answer--but the supplemental 
resources, is there a--if we don't get that solved by the 
middle of May, let's just assume we pass the fiscal year 2017 
in an omnibus, a cromnibus or whatever for the baseline, but 
now we are dealing with a supplemental; if we don't get that 
by, you know, a certain date like this is when you are really 
in a crisis. I am just trying to understand the impact of the 
prioritizations here and better understand when we really need 
to be getting that supplemental done. And I know earlier is 
always better, but can you give us a good sense of the impacts 
of----
    Mr. Taylor. On the aviation side, I can really only speak 
to the impact of continuing this CR for the whole year.
    Ms. McSally. Yeah.
    Mr. Taylor. And the Commandant essentially nailed that this 
morning.
    Ms. McSally. Yeah, we got that. I am talking about the 
timing of the supplemental now.
    Mr. Taylor. Right. I can't help you with the supplemental. 
It is percentages.
    Ms. McSally. Okay. Any other insights on baseline funding 
versus----
    General Dana. You know, ma'am, no new starts, I mean, in 
the MILCON [military construction] realm.
    Ms. McSally. No, again, assume we pass an omnibus bill to 
fund the government, which includes the fiscal year 2017 DOD 
appropriations before the end of April, then there is a DOD 
supplemental for the fiscal year 2017 as well. I am asking 
specifically--I am not talking about a CR anymore--the timing 
of the supplemental money and what that does to you. Does that 
make sense?
    General Bailey. Ma'am, let me take that for the record 
because you are asking specific dates and times. I understand 
your question.
    [The information referred to can be found in the Appendix 
on page 45.]
    Ms. McSally. Yeah, we heard this morning for example, you 
know, if we are on a CR, you know, airplanes are going to be 
grounded starting in June.
    So there is a very specific thing related to a CR. I am now 
saying, let's just say we get this first land mine out of the 
way of funding the government for fiscal year 2017, 
supplemental versus not supplemental, we need to understand 
that impact and timing. That would really help us as we are 
working with our colleagues here.
    Mr. Taylor. I can give you a partial answer on the aviation 
side. However, trying to tie it to a direct date is----
    Ms. McSally. Challenging.
    Mr. Taylor [continuing]. Is kind of cloudy because I can't 
predict whether or not they will be able to make fourth-quarter 
contract awards. I won't be able to predict whether or not it 
is marked as a result of the late award.
    But in terms of numbers, we are talking three V-22s, four 
C-12s, two C-40s, 53 Echo----
    Ms. McSally. In the supplemental.
    Mr. Taylor [continuing]. Degraded visual environment----
    Ms. McSally. Got it.
    Mr. Taylor [continuing]. MV-22s, CC-RAM [Common 
Configuration Reliability and Maintainability]. It is an 
attempt to try and take 77 configurations and consolidate 
around 1 configuration. So there are impacts. I just don't know 
if I am able to tie them to a direct date.
    Ms. McSally. Got it.
    Mr. Taylor. I would have to have a crystal ball.
    Ms. McSally. And are you all agnostic as to whether they 
are together or passed in separate vehicles? Is that mox nix to 
you guys?
    General Bailey. If it passed separate, we just want to make 
sure it is passed.
    Ms. McSally. Got it. Thanks.
    Mr. Taylor, back to the aviation issues, your assumptions 
on the F-18s for the transition of the F-35, obviously 
concerning based on what you talked about, that every time they 
go in for maintenance you peel back and you see it worse and 
worse. Media reports saying you are pulling a couple dozen out 
of the boneyard.
    Mr. Taylor. It is actually upwards of 23 perhaps and 7 
additional from within the----
    Ms. McSally. Okay. Twenty-three. That is close to a couple 
dozen, isn't it, in the boneyard, to address that. But the 
sunset date is until 2018 for the F-18. Right? What are you 
doing between--what is the----
    Mr. Taylor. Negative.
    Ms. McSally. All right. So talk through how you sustain the 
F-18 until it is completely replaced by the F-35, and are the 
assumptions good?
    Mr. Taylor. It is an art not a science. I will start with 
that statement. So they have already extended the service life 
of the legacy Hornet twice, once beyond 8,000 and once to 
9,000. They may have to consider extending the life to 10,000. 
That is one.
    Another effort--another initiative that is being prototyped 
as we speak is trying to take this myriad of disparate 
maintenance efforts, field events, depot events, which make no 
logical sense right now.
    All they do is guarantee that the aircraft is not available 
to the operating squadrons, because this week it is out for 
this inspection, they return it to the flight line, and that 
next day it is out for another inspection or a modification.
    So right now, NAVAIR [Naval Air Systems Command] is under 
work in prototyping two logical consolidated depot events to 
try and guarantee more aircraft availability on the flight line 
once they come out of that depot event. So that is looking very 
promising.
    And the rest is really driven by the extent to which our 
readiness accounts are funded in terms of spares, in terms of 
engineering disposition. That is another big one. A lot of time 
is wasted waiting for an engineer to reach back to NAVAIR 
proper and get engineering disposition on a certain risk event, 
and that consumes a lot of time.
    So, for instance, NAVAIR just put another--a second 
engineer down at Beaufort, as just one example of some of the 
ways they are trying to mitigate that.
    Ms. McSally. Great. My time has expired. But I appreciate 
it. Thank you, gentlemen.
    Mr. Wilson. And thank you, Congresswoman McSally. We now 
proceed to Congresswoman Elise Stefanik of New York.
    Ms. Stefanik. Thank you, Mr. Chairman, and thank you 
gentlemen for your service and for your testimony today.
    In the context of readiness I want to focus on emerging 
threats, specifically in the 21st century battlefield. The 
Marine Corps operating concept acknowledges going beyond 
physical terrain and operating in the information domain. This 
is something that my subcommittee, the Emerging Threats 
Subcommittee has spent a significant amount of time on.
    Can you describe how the Marine Corps is doing this and 
some of the challenges it has encountered in the cyber domain?
    General Bailey. There have been a tremendous amount of 
challenges that we have encountered in the cyber domain and 
that is the reason why we are eager to get the 3,000 Marines to 
get trained in cyber information operations and electromagnetic 
spectrum.
    And so what I would like to say, Congresswoman, is that 
when you talk about the cyber world, we are talking about the 
fight that starts now. We are in that fight right now. And so 
we put together 13 of these cyber teams, we expect them to be 
at FOC [full operational capability] in 2018, that is to give 
us an offense and defense capability. But the most important 
aspect of it is is that we are pushing those down to the Marine 
expeditionary force level so that they can operate and function 
and so we can train and prepare our Marine air-ground task 
forces as they go out to be able to fight in that environment.
    That environment is very dynamic, it is ever changing, and 
it is extremely complicated. And so as we move forward there 
are a couple of things that happen.
    And I say thank you because you have given us the 
authorization to stand up a three-star and so the Commandant is 
standing up a Deputy Commandant for information operations in 
that field so that we can continue to expand our capability and 
also focus in on the challenges that we will have and prepare 
us for the future threat.
    Ms. Stefanik. Thank you for that.
    In the hearing at the full committee this morning which was 
focused on the consequence of a continuing resolution, General 
Neller highlighted an interaction that he had with a Marine who 
specialized in cyber who asked him, and I quote, ``Sir, how can 
you afford to keep me?'' That's extremely problematic. And 
that's extremely concerning for members of this committee.
    Can you talk about those challenges of maintaining Marines 
with specialized skills, such as those in the cyber field, and 
what options we can explore to retain them?
    General Bailey. So I actually did hear that testimony this 
morning and I heard the Commandant describe that situation. And 
he said that basically we are going to establish the same 
approach that we established with our special operators. And 
one of the things that we are doing is to allow Marines to stay 
in that field, to work in that field.
    For example, because of how we started and the different 
Marines that we pulled in to the particular MOS [military 
occupational specialty], we really need the opportunity one, to 
develop the field. It takes a tremendous amount of training and 
schooling to get qualified in it.
    And so we are going to have to do several things. We are 
going to have to keep them in the billet, pay them their 
different types of bonuses and programs that you can establish 
so that you can keep the Marines in it, and allow the Marines 
to work in that field, because what they want--they're just 
like pilots, pilots want to fly.
    Marines who are good in cyber want to work in cyber, but 
the competition, as you know, is out there. And we are not just 
competing against the other services, but we are competing 
against all the other businesses that are needing cyber 
expertise.
    So that is just a couple of the things that we are going to 
look towards to ensure that we can keep those Marines in that 
field. It's a growing process and when you give Marines the 
opportunity, they look forward to staying in that field and 
working in that field. And then you back that up with schools, 
jobs, and good command climate, they stay.
    Ms. Stefanik. Absolutely. I think that increased 
flexibility is the right direction, particularly when there are 
opportunities outside of the military certainly within the 
government broadly, but also in the private sector.
    And we want to make sure that our best and brightest 
continue to see opportunities in cyber within the Marines.
    So thank you for that answer and I yield back.
    Mr. Wilson. Thank you, Chairwoman Elise Stefanik of the 
Emerging Threats Subcommittee. She does a great job and we 
appreciate that.
    I was happy that she referenced earlier today with the 
Joint Chiefs. And I want to commend each of you, you have 
really continued making the points that are so important to 
Chairman Mac Thornberry of where consistent funding be 
established that indeed a long-term continuing resolution would 
be a threat to our military personnel, our military families, 
and a threat to readiness.
    And with this, we are now adjourned.
    [Whereupon, at 3:08 p.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                             April 5, 2017

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 5, 2017

=======================================================================

      
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 5, 2017

=======================================================================

      

             RESPONSE TO QUESTION SUBMITTED BY MS. McSALLY

    General Bailey. The Marine Corps assumed receipt of FY17 Additional 
Appropriations in May 2017 when the request for additional 
appropriations was submitted. If funding was received after June 1, 
2017 there would be the potential that some of the funding appropriated 
would not be executed prior to October 1, 2017.   [See page 15.]

                                  <all>
</pre></body></html>
